<html>
<title> - COMBATING TERRORISM: PROPOSED TRANSFER OF THE DOMESTIC PREPAREDNESS PROGRAM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
  COMBATING TERRORISM: PROPOSED TRANSFER OF THE DOMESTIC PREPAREDNESS 
                                PROGRAM

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 26, 1999

                               __________

                           Serial No. 106-27

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
59-450 CC                    WASHINGTON : 1999




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Michele Lang, Professional Staff Member
                        Jonathan Wharton, Clerk
                    David Rapallo, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 26, 1999.....................................     1
Statement of:
    Cragin, Charles L., Acting Assistant Secretary for Reserve 
      Affairs, Department of Defense.............................     6
    Light, Catherine, Director, Office of National Security 
      Affairs, Federal Emergency Management Agency, accompanied 
      by Bruce Baughman, Director of Operations and Plans, 
      Response and Recovery, Federal Emergency Management Agency.    45
    Martinez, Barbara Y., Deputy Director, National Domestic 
      Preparedness Office, Department of Justice.................    37
    Mitchell, Andy, Deputy Director, Office for State and Local 
      Domestic Preparedness Support, Office of Justice Programs, 
      Department of Justice......................................    19
Letters, statements, etc., submitted for the record by:
    Cragin, Charles L., Acting Assistant Secretary for Reserve 
      Affairs, Department of Defense, prepared statement of......    10
    Light, Catherine, Director, Office of National Security 
      Affairs, Federal Emergency Management Agency, prepared 
      statement of...............................................    47
    Martinez, Barbara Y., Deputy Director, National Domestic 
      Preparedness Office, Department of Justice, prepared 
      statement of...............................................    40
    Mitchell, Andy, Deputy Director, Office for State and Local 
      Domestic Preparedness Support, Office of Justice Programs, 
      Department of Justice, prepared statement of...............    22
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     4


  COMBATING TERRORISM: PROPOSED TRANSFER OF THE DOMESTIC PREPAREDNESS 
                                PROGRAM

                              ----------                              


                        WEDNESDAY, MAY 26, 1999

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Mica and Tierney.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Michele Lang, professional staff member; Jonathan 
Wharton, clerk; David Rapallo, minority counsel; and Jean Gosa, 
minority staff assistant.
    Mr. Shays. I would like to call this hearing to order.
    Preparing to meet the threat of a terrorist attack here at 
home, local, public safety and health care officials today face 
a confusing array of Federal programs and agencies offering 
expertise, training and equipment. In 1995, the President 
designated the Federal Emergency Management Agency [FEMA], as 
the lead Federal agency for consequence management, the 
measures needed to protect life, restore essential services and 
provide emergency relief after a terrorism event involving 
conventional, biological or chemical weapons of mass 
destruction. At the same time, the Federal Bureau of 
Investigation [FBI], part of the Department of Justice [DOJ], 
was directed to lead crisis management, the measures needed to 
prevent or punish acts of terrorism.
    In 1996, Congress directed the Department of Defense [DOD], 
to provide consequence management training and equipment to 
cities through what is now known as the Domestic Preparedness 
Program while also authorizing FEMA and DOJ to enhance the 
response capabilities of local police and fire departments. So 
the proposed transfer of the Domestic Preparedness Program from 
the Department of Defense to the Department of Justice offers 
the promise of one-stop shopping for State and local first 
responders, but raises key questions that should be addressed 
before an act of terrorism puts that promise to the test.
    The central question, does the consolidation of domestic 
preparedness programs in DOJ ignore the clear, necessary 
distinction between crisis management and consequence 
management reflected in the President's original lead agency 
designations? Will FEMA be able to assert a primary role in 
consequence management once the bulk of Federal training and 
equipment funds are coming from Justice? How will DOJ resolve 
inevitable conflicts between the law enforcement imperative to 
maintain the integrity of a crime scene and the equally 
compelling need to mitigate consequences by evacuating and 
decontaminating the same area when they are responsible for 
both?
    These are not abstract policy questions. When, not if, 
terrorists strike within our borders again, Federal support 
will be indispensable to an effective local response. Unless 
that Federal effort is properly structured and targeted, local 
planning may be inadequate, local preparations may be hazard, 
and critical assets may be misallocated. More than 40 national 
departments and agencies have responsibilities in the fight 
against domestic terrorism. Unless their roles are thoughtfully 
sorted out now, uncoordinated Federal assistance could, like 
the Keystone Cops of silent films, only serve to confuse and 
confound local response operations.
    Our witnesses today represent the key departments and 
agencies involved in the proposed consolidation and transfer of 
domestic preparedness activities, DOJ, DOD, and FEMA. We 
appreciate their testimony today and look forward to their 
continued cooperation in the subcommittee's oversight of 
Federal anti- and counterterrorism programs.
    When we talk about the number of departments within the 
Department of Justice, you have the Federal Bureau of 
Investigation, Immigration and Naturalization Service, U.S. 
Marshals Service, Drug Enforcement Agency, Office of Justice 
Programs.
    Then you have the Federal Emergency Management Agency.
    Then you have the Department of Defense: Joint Chiefs of 
Staff; U.S. Army; U.S. Navy; U.S. Marine Corps, particularly 
their chemical-biological incident response forces; U.S. Air 
Force; U.S. Special Operations Command; U.S. Central Command, 
Defense Intelligence Agency; Advanced Research Projects Agency; 
Defense Information Systems Agency; Defense Special Weapons 
Agency; Director of Military Support.
    Department of State: U.S. Information Agency under State 
starting October 1999.
    Department of Health and Human Services: Public Health 
Service; Center for Disease Control and Prevention.
    Department of Energy: U.S. Nuclear Regulatory Commission; 
Environmental Protection Agency.
    Department of Transportation: Federal Aviation 
Administration; U.S. Coast Guard.
    Department of Treasury: U.S. Customs Service; Bureau of 
Alcohol, Tobacco and Firearms; U.S. Secret Service.
    Central Intelligence Agency, National Security Agency, 
National Security Council.
    Department of Commerce.
    Department of Veterans Affairs.
    U.S. Postal Service, White House Communications Agency, 
U.S. Capitol Police, Office of the Vice President, U.S. Supreme 
Court Marshals Office, State and local entities with terrorism-
related programs and activities, Governors' offices, National 
Guard, State police, State fire, State Departments of 
Environmental Protection, State Department of Emergency 
Management, State public health departments, city-county fire 
departments, emergency medical services, hazardous materials 
teams, urban search and rescue, city and county police 
departments, sheriffs' offices, hospitals, emergency room 
physicians. It is a long list.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED]59450.001
    
    [GRAPHIC] [TIFF OMITTED]59450.002
    
    Mr. Shays. At this time I would call our witnesses, the 
Honorable Charles L. Cragin, Acting Assistant Secretary for 
Reserve Affairs, Department of Defense; Mr. Andy Mitchell, 
Deputy Director, Office for State and Local Domestic 
Preparedness Support, Office of Justice Programs, Department of 
Justice; Mrs. Barbara Y. Martinez, Deputy Director, National 
Domestic Preparedness Office, Federal Emergency Management 
Agency; Ms. Catherine Light, Director, Office of National 
Security Affairs, Federal Emergency Management Agency. In place 
of Mr. Lacy Smith, we have Bruce P. Baughman, who is the 
Director of Operations and Plans, Federal Emergency Management 
Agency.
    What I'm going to do, as you know we swear in all of our 
witnesses. If there is anyone that is going to accompany you, 
Mr. Cragin, Mr. Mitchell, Mrs. Martinez, or Ms. Light, if you 
think you would call on to actually say something, I would ask 
them to stand, and we will swear them in as well in case they 
would be called upon to speak.
    If you would rise, and if there is anyone that you would 
suggest that might, if you would raise your right hands, 
please.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all five have responded in 
the affirmative, and it's very nice to have all of you here. 
Mr. Cragin, it's nice to have you here, and I would ask you to 
open up this hearing. Thank you.

STATEMENT OF CHARLES L. CRAGIN, ACTING ASSISTANT SECRETARY FOR 
             RESERVE AFFAIRS, DEPARTMENT OF DEFENSE

    Mr. Cragin. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to speak with you today about this very, very 
important issue.
    Let me briefly summarize the history and status of the DOD 
Domestic Preparedness Program as well as our plans for 
transitioning leadership responsibility for the program to the 
Department of Justice.
    The Domestic Preparedness Program, as you observed, was 
established to implement the provisions of the Defense Against 
Weapons of Mass Destruction Act of 1996. DOD was designated as 
the interagency lead to carry out a program to provide civilian 
personnel in Federal, State and local agencies with the 
training and expert advice regarding responses to a use or 
threatened use of a weapon of mass destruction.
    In 1997, DOD began providing training and expert assistance 
for the Nation's 120 largest cities. A listing of those cities 
and the status of their training is included as an attachment 
to my statement for the record. To date 58 cities have 
participated in the training, and more than 15,700 first 
responder trainers have been trained.
    My Federal interagency counterparts participated in the 
initial development of the training approach for this program, 
and they continue to participate in the program's execution 
today. The training approach for this program involves initial 
visits to selected cities to plan and customize the training; a 
week of ``train the trainer'' training for local first 
responder, HAZMAT, firefighter and law enforcement and 
emergency medical service personnel; tabletop and functional 
hands-on exercises using chemical and biological scenarios to 
further reinforce this training; and a training equipment 
package which is loaned to each city for their subsequent 
training use.
    Although I have oversight responsibility for this program, 
the U.S. Army's Soldier and Biological Chemical Command and the 
Director of Military Support serve as DOD's principal agents 
for executing this training program. The program is 
accomplished largely through contracts with certified 
professional instructors and subject matter experts in the 
areas of nuclear, radiological, chemical and biological 
medicine; public health; law enforcement; and emergency 
response.
    The enabling legislation for this program requires DOD to 
plan and coordinate an annual Federal, State and local exercise 
to improve the integration of Federal, State and local response 
assets during a WMD response. The fiscal year 1999 exercise 
will be held in New York City in September and involves a 
biological scenario.
    Other components of the Domestic Preparedness Program 
provide direct support and assistance to the first responder 
community. These include the Improved Response Program and the 
Expert Assistance Program.
    The law requires that the Department annually use the 
lessons learned from program execution to revise or update the 
program to ensure the training is effective, that it is 
technically up-to-date and is responsive to user requirements. 
While the Improved Response Program helps to prevent technical 
obsolescence, responder feedback from the execution of training 
and exercises associated with this program has profoundly 
influenced the training focus.
    Without exception, the No. 1 request of first responders 
has been to identify a single Federal agency to lead the 
training and equipping of first responders. As you observed in 
your opening statement and in their words, they seek the ease, 
convenience and predictability of one-stop shopping at the 
Federal level.
    Last summer, in an effort to respond to President Clinton's 
direction to work more collaboratively and aggressively to 
combat terrorism, Deputy Secretary of Defense Hamre, Attorney 
General Reno, FEMA Director Witt, FBI Deputy Director Bryant 
and Director Clarke from the NSC met to discuss the feasibility 
of accomplishing that objective. The result was an agreement in 
principal that the Department of Justice would assume lead 
Federal agency responsibility for the WMD Domestic Preparedness 
Program.
    Since that time the Department of Defense and Department of 
Justice have been formulating and negotiating the terms of an 
interagency agreement to transfer lead responsibility for the 
WMD Domestic Preparedness Program from DOD to DOJ beginning in 
October of the year 2000. Although our negotiations are not yet 
concluded, we are moving toward finalizing that agreement. DOD 
will retain responsibility for the city training and equipping 
program until the end of fiscal year 2000, at which time DOJ 
will honor the commitment to train the remainder of the 
originally designated 120 cities. Beginning in fiscal year 
2000, DOJ will coordinate with DOD during city training 
planning visits and will provide training equipment grants to 
cities trained by DOD in fiscal year 2000.
    The transition will occur in stages to accommodating 
existing budgets and program plans. Checks and balances are 
built into the staged approach to the transition. DOJ will 
coordinate with DOD throughout fiscal year 2000 and will 
participate in joint planning as articulated in the finalized 
Memorandum of Understanding which we hope to complete in early 
summer.
    DOD's focus beginning in fiscal year 2001 will be to 
continue to enhance the readiness of its WMD response units as 
well as installation responders. DOJ will focus on the domestic 
preparedness of State and local responders. As a result both 
Departments will contribute funding to benefit from the lessons 
learned from the Improved Response Program beginning in fiscal 
year 2001. Joint planning will be conducted through a 
multiagency task force to coordinate improvements needed not 
only for State and local response, but also for DOD's military 
WMD response elements.
    Beginning in fiscal year 2001, the Department of Justice 
will assume full responsibility for managing and funding the 
first responder hotline, the helpline, and the Internet Web 
site. DOD will continue to fund and maintain the data base of 
WMD-related chemical-biological information and the equipment 
testing program as these program elements are integral to 
satisfying the DOD mission. DOJ will coordinate with DOD in 
joint planning efforts so that the State and local responder 
communities will continue to benefit from these Expert 
Assistance Programs.
    DOD will also continue to maintain at least one domestic 
terrorism rapid response team capable of aiding Federal, State, 
and local officials in the detection, neutralization, 
containment, dismantlement and disposal of WMD chem-bio 
materials as was required by the Nunn-Lugar-Domenici law. In 
fiscal year 1999 a chemical-biological rapid response team as 
well as 10 rapid assessment and initial detection teams were 
established to meet that requirement. In fiscal year 2000, DOD 
has requested the funding to support the establishment of an 
additional five RAID teams.
    The Department of Defense will continue to support the 
Department of Justice both during the transition and following 
its completion. The continued partnership for WMD preparation 
among local, State and Federal authorities is mandatory for our 
success. The recently enacted fiscal year 1999 Emergency 
Supplemental Appropriation Act has made that point very clear. 
Title III of the act acknowledges the new leadership role of 
the Department of Justice in combating terrorism and the need 
to actively engage the 54 States and territories in the 
development of a national WMD preparedness strategy.
    The act requires that a fully coordinated final NDPO, that 
is the National Domestic Preparedness Office, blueprint 
outlining the specific roles and involvement of all Federal, 
State and local NDPO participants be submitted to Congress 
within the next few weeks. The NDPO must develop a plan for 
consulting with the States and developing and implementing a 
national strategy for domestic preparedness that builds on the 
existing all-hazard emergency management capabilities.
    Among other things, Mr. Chairman, the act requires the 
Attorney General to request that each State Governor designate 
a lead State agency or other entity to develop a comprehensive 
State-level domestic preparedness plan. Each State plan is to 
be based on a State-level needs assessment that identifies 
local and State first responder needs and provides an 
assessment of the resources currently available at the local, 
State and Federal level. My colleague Mr. Mitchell will discuss 
in more detail the needs assessment process.
    Since President Clinton issued PDD-62 a year ago to enhance 
our Nation's capability to combat domestic terrorism, there has 
been a concerted interagency cooperative effort to coordinate 
and streamline our programs in a way that is fairly consistent 
with this most recent round of congressional direction.
    We know what we need to do. We have made a good beginning, 
but we have a very long way to go. The NDPO is getting started, 
and the Attorney General has the full support of the Department 
of Defense in her leadership role. We are faced with a 
multiyear effort, which requires cooperation, patience and a 
long-term commitment. I thank you, sir, for your continued 
support and interest in this vitally important area.
    Mr. Shays. Thank you, Mr. Cragin.
    [The prepared statement of Mr. Cragin follows:]

    [GRAPHIC] [TIFF OMITTED]59450.003
    
    [GRAPHIC] [TIFF OMITTED]59450.004
    
    [GRAPHIC] [TIFF OMITTED]59450.005
    
    [GRAPHIC] [TIFF OMITTED]59450.006
    
    [GRAPHIC] [TIFF OMITTED]59450.007
    
    [GRAPHIC] [TIFF OMITTED]59450.008
    
    [GRAPHIC] [TIFF OMITTED]59450.009
    
    [GRAPHIC] [TIFF OMITTED]59450.010
    
    [GRAPHIC] [TIFF OMITTED]59450.011
    
    Mr. Shays. I want to correct the record. Mr. Mitchell, you 
are next. Mrs. Martinez, you are not from FEMA, you are from 
the Department of Justice.
    Mrs. Martinez. Yes, I am.
    Mr. Shays. Thank you for your restraint.
    Mrs. Martinez. We have a great partnership.
    Mr. Shays. Anyway, great to have you from the Department of 
Justice. I was wondering who would represent the Department of 
Justice here. OK. You are on, Mr. Mitchell.

 STATEMENT OF ANDY MITCHELL, DEPUTY DIRECTOR, OFFICE FOR STATE 
  AND LOCAL DOMESTIC PREPAREDNESS SUPPORT, OFFICE OF JUSTICE 
                PROGRAMS, DEPARTMENT OF JUSTICE

    Mr. Mitchell. Thank you. Thank you, Mr. Chairman, 
Congressman Tierney. On behalf of Attorney General Janet Reno, 
Assistant Attorney General Laurie Robinson, I am pleased to be 
here today to discuss OJP's programs to enhance the 
capabilities of State and local first responders to deal with 
domestic terrorism involving weapons of mass destruction.
    Mr. Shays. Mr. Mitchell, let me just have you suspend for 1 
second to recognize that Mr. Tierney is here. I apologize. I 
would ask unanimous consent that all members of the 
subcommittee be permitted to place any opening statement in the 
record and that the record remain open for 3 days for that 
purpose. Without objection, so ordered. I ask further unanimous 
consent that all Members be permitted to include their written 
statement, too, in the record, and without objection, so 
ordered. Thank you. I am sorry, Mr. Mitchell.
    Mr. Mitchell. No problem. Thank you. In 1998, the Attorney 
General delegated authority for key facets of DOJ's Domestic 
Preparedness Program to the Assistant Attorney General for the 
Office of Justice Programs, who in turn proposed the creation 
of the Office for State and Local Domestic Preparedness Support 
to develop and administer critically needed financial and 
technical support to the Nation's first responders.
    Building on experience developed through 30 years of 
providing public safety and law enforcement support for 
training and technical assistance to State and local 
governments, OJP is focusing on five interrelated areas. First, 
we are conducting a national needs assessment to better help 
allocate resources and direct our design of training and 
exercise programs to meet the needs of the first responders as 
they define those needs.
    Second, our office is providing financial assistance to 
enable State and local jurisdictions to buy much needed 
equipment. This fiscal year OJP will award $85.5 million to 
over 200 cities and the 50 States. We just finalized our 
agreements with appropriation staff yesterday, and we will have 
information for the committee on how those funds will be 
distributed early next week.
    Third, OJP offers a broad spectrum of training to ensure 
that State and local emergency response personnel, fire, law 
enforcement, HAZMAT, EMS, and public officials have the 
knowledge, skills and abilities to respond safely and 
effectively to a terrorist incident.
    Fourth, OJP will support local-level tabletop and 
functional exercises for State and local agencies to help 
identify strengths and weaknesses within their current response 
plans.
    And fifth, we offer a wide range of technical assistance to 
help transfer knowledge and assist State and local agencies to 
make critical decisions the domestic preparedness issue 
requires.
    In delivering training and equipment to emergency 
personnel, OJP will closely coordinate and cooperate with the 
Department of Justice's National and Domestic Preparedness 
Office [NDPO], as Mr. Cragin has already discussed, which was 
proposed to coordinate Federal domestic preparedness 
initiatives and to serve as a single point of contact for first 
responders for information on Federal preparedness programs. In 
working with the NDPO, OJP participates in an intergovernmental 
coordination process that helps all Federal agencies to better 
focus and coordinate program policy across the Federal 
Government.
    In formulating our plans, OJP in concert with NDPO has made 
every effort to coordinate existing and planned domestic 
preparedness programs with those sponsored by other Federal 
agencies. This coordinated approach helps ensure that our 
programs are integrated with those efforts and that program 
funding is maximized to deliver the best training in the most 
effective manner.
    In particular, the intergovernmental coordination has been 
very significant and effective as the Departments of Defense 
and Justice are planning to transfer the Nunn-Lugar Domestic 
Preparedness Program. The Department of Justice is committed to 
completing the training in the 120 jurisdictions originally 
identified by DOD. Our two departments are working extremely 
well with excellent coordination between the agencies, 
particularly from the staff of the Reserve Affairs Office 
headed by Mr. Cragin.
    I am confident that the program transition will result in a 
much more robust and comprehensive Federal training program for 
the Nation's first responders, enabling OJP to integrate our 
existing training and other domestic preparedness assets with 
the Domestic Preparedness Program implementation.
    The integration will also address legitimate concerns 
regarding the two programs having different target groups with 
different mechanisms. As Charlie said, the memorandum of 
agreement is undergoing final review, and we should hope to 
have that finalized by this summer.
    The training equipment component of Nunn-Lugar is a 
critical element. OJP will provide grants for this purpose for 
the 20 cities beginning the training in fiscal year 2000 under 
DOD's leadership and in subsequent years. This will eliminate 
confusion and the difficulties inherent with the current 
equipment loan program. This is another area where OJP's 
grantmaking authorities and capabilities can enhance the 
program implementation.
    A major element of our program in OJP is the National 
Domestic Preparedness Consortium. Funding for all five members 
was provided for the first time in fiscal year 1999 to develop 
and implement specialized training for first responders. Each 
of the consortium members, Louisiana State University, Texas 
A&M University, the New Mexico Institute of Mining and 
Technology, the Department of Energy's Nevada test site and 
OJP's Center for Domestic Preparedness at Fort McClellan, AL, 
has unique capabilities and expertise that will contribute to 
more diverse, well-rounded training opportunities for the 
Nation's first response community and will add significantly to 
the training opportunities for these responders.
    Throughout the development of OJP's programs and under the 
umbrella of the NDPO and our Federal partners, we have made 
every effort to keep in close touch with those that we are here 
to serve, the Nation's first responders. We will work closely 
with, for example, the National Emergency Management 
Association, the National Association of Fire Chiefs, and the 
National Sheriffs Association and other key stakeholder groups. 
With their help and constant feedback, we will continue to 
develop and improve our programs so that we can enhance the 
Nation's ability to deal with events that we all hope will 
never occur. Thank you, and I will be happy to answer any 
questions that you may have.
    Mr. Shays. Thank you, Mr. Mitchell.
    [The prepared statement of Mr. Mitchell follows:]

    [GRAPHIC] [TIFF OMITTED]59450.012
    
    [GRAPHIC] [TIFF OMITTED]59450.013
    
    [GRAPHIC] [TIFF OMITTED]59450.014
    
    [GRAPHIC] [TIFF OMITTED]59450.015
    
    [GRAPHIC] [TIFF OMITTED]59450.016
    
    [GRAPHIC] [TIFF OMITTED]59450.017
    
    [GRAPHIC] [TIFF OMITTED]59450.018
    
    [GRAPHIC] [TIFF OMITTED]59450.019
    
    [GRAPHIC] [TIFF OMITTED]59450.020
    
    [GRAPHIC] [TIFF OMITTED]59450.021
    
    [GRAPHIC] [TIFF OMITTED]59450.022
    
    [GRAPHIC] [TIFF OMITTED]59450.023
    
    [GRAPHIC] [TIFF OMITTED]59450.024
    
    [GRAPHIC] [TIFF OMITTED]59450.025
    
    [GRAPHIC] [TIFF OMITTED]59450.026
    
    Mr. Shays. We will hear from Mrs. Martinez now.

  STATEMENT OF BARBARA Y. MARTINEZ, DEPUTY DIRECTOR, NATIONAL 
      DOMESTIC PREPAREDNESS OFFICE, DEPARTMENT OF JUSTICE

    Mrs. Martinez. Good morning, Mr. Chairman, and thank you 
for this opportunity to speak before distinguished Members of 
Congress and my colleagues regarding the proposed role of the 
National Domestic Preparedness Office in combating terrorism 
within the United States. My intent is to highlight the 
importance of achieving coordination across the Federal 
Government of the various individual agency efforts that 
currently provide valuable assistance to State and local 
communities in preparing them to face the challenge that 
terrorism presents.
    As you have noted, over 40 Federal agencies would have a 
role in the response to a true terrorist attack involving 
weapons of mass destruction. So, too, are many of these 
agencies in a logical position to provide various forms of 
expert assistance to prepare their State and local counterparts 
whose job it is to save lives and protect the security of our 
communities if such an event occurs.
    The mission of the National Domestic Preparedness Office, 
as recommended to the Attorney General by State and local 
authorities, will be to serve as the central coordinating body 
for Federal programs that can help emergency responders prepare 
for such events.
    As you know, in the past few years Congress and the 
President have taken significant steps to increase our national 
security and to promote interagency cooperation. Most recently, 
cooperative efforts against terrorism have been expanded to 
include State and local agencies as well as professional and 
private sector associations. For example, in the preparation of 
the administration's 5-year interagency counterterrorism and 
technology crime plan, the Attorney General sought the input of 
over 200 local and State representatives of response 
disciplines that would be most likely involved in the response 
to a terrorist event. Collectively, fire services and HAZMAT 
personnel, law enforcement and public safety personnel, 
emergency medical and public health professionals, emergency 
management, local and State government officials as well as 
various professional associations and organizations recommended 
to the Attorney General and others on ways to improve Federal 
assistance for State and local communities. These 
recommendations have been incorporated into the 
administration's 5-year plan.
    The most critical issue identified by stakeholders was the 
need for a central Federal point of coordination. Due to the 
size and complexity of both the problem of terrorism and the 
Federal Government itself, it was no surprise that the many 
different avenues through which aid may be required by State 
and local officials and the resulting inconsistency in those 
programs was simply deemed to be overwhelming. In essence, the 
Federal Government, though well intended, was not operating in 
an optimal manner, nor was it effectively serving its 
constituents with regard to domestic preparedness programs and 
issues.
    State and local response officials made a strong 
recommendation in the presence of the Attorney General and the 
presence of the Director of FEMA and the Secretary of Defense 
for the coordination and integration of all the Federal 
programs that rate State and local agencies for terrorism 
preparedness. In heeding that recommendation, the Attorney 
General further conferred with the National Security Council, 
FEMA, HHS, DOD and others, and with their support proposed the 
National Domestic Preparedness Office. If approved, the office 
will provide a productive forum for the coordination of the 
vital efforts of the Office of Justice Program's Office for 
State and Local Preparedness Support, FEMA, Department of 
Defense, National Guard, EPA, the environmental agency, the 
Department of Energy, the Department of Health and Human 
Services, FBI, and the many other Federal agencies with related 
assistance programs.
    Stakeholders also cited the need for formal representation 
of State and local authorities along with the Federal agencies 
in the form of an advisory board to guide the development and 
delivery of more effective Federal programs. Federal agencies 
agreed that State and local participation is critical to the 
whole process of domestic preparedness. Therefore, in addition 
to the advisory board, it is anticipated that when fully 
staffed, the NDPO will be staffed approximately one-third by 
State and local experts from various disciplines. These 
positions will be filled through establishment of interagency 
reimbursable agreements or contract hires.
    Overall the NDPO will serve as a clearinghouse to provide 
information to local and State officials who must determine the 
preparedness strategy for their community. The stakeholders 
easily identified six broad issue areas in need of coordination 
assistance: planning, training, exercise, equipment research 
and development, information sharing, and public health and 
medical services. If I could, I would like to highlight just a 
few of these, the efforts the NDPO could engage in.
    In the area of training, the NDPO would establish a 
mechanism to ensure that Federal training programs comply with 
minimal national standards, such as those of the National Fire 
Protection Association, Occupational Safety and Health 
Administration. The NDPO could also develop a national strategy 
to make sustained training opportunities and assistance 
available to all communities and States nationwide. The NDPO 
would maintain an after-action tracking data base for the 
repository and review of all lessons learned during exercises 
and actual events that might assist other communities.
    In connection with information sharing, the NDPO can 
implement a mechanism to facilitate access by personnel outside 
law enforcement to information that would be critical for 
preparedness and consequence management.
    In the area of equipment research and development, the 
NDPO, with direct input by emergency responders, has already 
established a standardized equipment list which has been 
incorporated into the grant application kits used by the Office 
of Justice Programs. The NDPO again would serve as a 
clearinghouse for product information provided by private 
vendors and testing data provided by approved testing 
facilities, including those of Department of Defense, to 
promote a synergy and avoid costly duplication in the area of 
Federal research and development.
    Finally, in the area of health and medical services, the 
NDPO, under the guidance of the Public Health Service of the 
Department of Health and Human Services, would coordinate the 
efforts to support the metropolitan medical response systems, 
pharmaceutical stockpiling systems, the establishment of a 
nationwide surveillance system, and over other efforts to 
improve the identification of infectious diseases and the 
overall integration of the public health and mental health care 
community into the WMD response plans.
    Mr. Chairman, I thank you for the opportunity to speak to 
you today and in the future as the NDPO continues to mature 
into the one-stop shopping for domestic preparedness as 
proposed by the Attorney General of the United States. She has 
recently said that the actions of the first people on the scene 
can really make a difference between life and death, and the 
key is to work together in a partnership among Federal, State, 
and local communities to prepare a coordinated response that 
saves lives and provides for the safety of all involved. I will 
answer any questions that you may have.
    Mr. Shays. Thank you very much, Mrs. Martinez.
    [The prepared statement of Mrs. Martinez follows:]

    [GRAPHIC] [TIFF OMITTED]59450.027
    
    [GRAPHIC] [TIFF OMITTED]59450.028
    
    [GRAPHIC] [TIFF OMITTED]59450.029
    
    [GRAPHIC] [TIFF OMITTED]59450.030
    
    [GRAPHIC] [TIFF OMITTED]59450.031
    
    Mr. Shays. Ms. Light.

  STATEMENT OF CATHERINE LIGHT, DIRECTOR, OFFICE OF NATIONAL 
    SECURITY AFFAIRS, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
   ACCOMPANIED BY BRUCE BAUGHMAN, DIRECTOR OF OPERATIONS AND 
  PLANS, RESPONSE AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT 
                             AGENCY

    Ms. Light. Good morning, Mr. Chairman, and good morning, 
Mr. Tierney. On behalf of Director James Lee Witt, thank you 
for the opportunity to discuss the status of terrorism-related 
Domestic Preparedness Program activities. I have provided a 
written statement and will now summarize key points from that 
statement. First I will give a brief overview of FEMA's roles 
and responsibilities with respect to domestic terrorism and 
then discuss our position on the proposed transfer of the Nunn-
Lugar-Domenici Domestic Preparedness Program from the 
Department of Defense to the Department of Justice.
    FEMA is the Federal Government's lead agency for 
consequence management preparedness and response to domestic 
incidents involving weapons of mass destruction. FEMA uses the 
Federal Response Plan [FRP], as the vehicle to coordinate the 
Federal consequence management activities. Over the years, the 
FRP has been used in numerous Presidentially declared disasters 
and emergencies. The plan brings together 27 departments and 
agencies to organize Federal disaster response and recovery 
efforts in support of State and local requirements. Most 
importantly, the FRP provides a known and flexible framework 
under which local, State and Federal officials can orchestrate 
their response and make the most effective use of available 
resources.
    In implementing its domestic preparedness activities, FEMA 
strives to ensure four key points: First, that State and local 
first responders and emergency management personal are the 
focus of the Federal programs; second, that the needs of the 
balance of the Nation, not just the largest cities and the 
metropolitan areas, are addressed; third, that initial training 
is reinforced and sustained with refresher information and 
updated instruction; and finally, that existing plans, systems 
and capabilities are used as the foundation for addressing the 
unique requirements of responding to terrorist incidents 
involving weapons of mass destruction.
    FEMA Director Witt has been working closely with the 
Attorney General to better coordinate interagency efforts for 
domestic preparedness including support for the National 
Domestic Preparedness Office. In addition to supporting the 
NDPO, FEMA will continue its lead agency responsibilities for 
consequence management.
    With respect to planning, FEMA applies experience gained in 
responding to natural disasters to the development of plans and 
procedures for terrorism response. In 1997, we published the 
Terrorism Incident Annex to the Federal Response Plan, and we 
continue to work with the interagency community to refine our 
response. In addition, FEMA grant assistance is being used to 
enhance State and local planning resources and capabilities.
    In the area of training, FEMA has developed and delivered a 
number of terrorism-related courses utilizing existing networks 
and facilities. In particular, we rely on the National 
Emergency Training Center, which includes the Emergency 
Management Institute and the National Fire Academy as well as 
State fire and emergency management training systems to deliver 
terrorism-related training to States and local responders. 
Additionally, the Emergency Management Institute developed a 
Senior Officials Workshop for DOD's Nunn-Lugar-Domenici 
program, and the National Fire Academy worked very closely with 
the Department of Justice to provide a curriculum for DOJ's 
metropolitan fire and emergency services training.
    Regarding exercises, we are working very closely with the 
NDPO, FBI, other departments and agencies in the States to 
ensure the development of a comprehensive exercise program that 
meets State and local needs.
    As for equipment, we assisted in the development of the 
standardized equipment list that has been referenced earlier 
today.
    With respect to the proposed transfer of the Nunn-Lugar-
Domenici Domestic Preparedness Program, FEMA strongly supports 
the transfer from DOD to DOJ. FEMA has worked very closely with 
DOD and the interagency community to help institutionalize the 
process, and we will continue to work very closely with the 
Department of Justice as the program is transferred to them.
    FEMA is committed to work with the Federal interagency 
community in coordinating our activities and programs as part 
of the overall Federal effort, and we are committed to doing 
everything that we can to better prepare the States and local 
jurisdictions for dealing with this immense challenge.
    Once again, thank you for the opportunity to address this 
subcommittee.
    [The prepared statement of Ms. Light follows:]

    [GRAPHIC] [TIFF OMITTED]59450.032
    
    [GRAPHIC] [TIFF OMITTED]59450.033
    
    [GRAPHIC] [TIFF OMITTED]59450.034
    
    [GRAPHIC] [TIFF OMITTED]59450.035
    
    [GRAPHIC] [TIFF OMITTED]59450.036
    
    Mr. Shays. Thank you all very much. First, let me say this 
will be the first of a number of hearings. The advantage that 
this committee has is that we are an investigative committee. 
We are not a committee that promulgates legislation. We 
advocate legislation and then encourage other committees to do 
it, but we really look at how programs are working.
    The advantage that this committee has is that we aren't 
limited by one department or agency. We have total jurisdiction 
in the Government Reform Committee of terrorism and anything 
related to it, whether it be in the Department of Defense, 
Department of Justice, FEMA or anywhere else. We think that we 
need to take advantage of that.
    Second, this is really our first hearing, so I am going to 
go through questions that have been written out because we 
really want them on the record. I am interested in asking some 
other questions as well, but I am going to go through to put 
these on the record. Some of them are in your statement, but I 
want them in response to the questions that I ask.
    The other thing that I want to say is that we really are 
putting you all in the same table. I am not trying to pit one 
against the other, but I am going to ask questions that will 
hopefully force us to just come to grips with why decisions are 
made and so on.
    So, one, I appreciate the fact that you all wanted to be at 
the same table, but I think what you all are doing is one of 
the most important things. It is one reason why I chose to 
chair this committee. One of my greatest concerns is not an 
errant missile that comes to the United States. It is a 
suitcase or a bomb in a truck left in Times Square, the 
absolute rejoicing that some nations would have if this great 
country were wounded in some way.
    I also say that while your faces may not be public, I 
believe they will during the course of the next years because I 
do think there will be a terrorist attack; hopefully not one of 
great magnitude, but I think there will be. The odds are there 
will be, in my judgment. There are three weapons of choice, 
whether they be chemical, biological or, in fact, even nuclear. 
So you all are on a very important mission.
    These questions are going to be first addressed to all of 
you. I think, Mr. Cragin, this came from your statement. You 
said,

    The Attorney General announced last October a plan to 
transfer the Nunn-Lugar-Domenici Domestic Preparedness Program 
from the Department of Defense to the Department of Justice. 
DOJ and DOD are finalizing the Memorandum of Understanding on 
the transfer of the Domestic Preparedness Program. This MOU 
will set forth how the transfer will be implemented.

    I would like to just know a little bit more about that 
ultimately, but first I would like to ask, Mr. Cragin, why was 
the decision made to transfer the Domestic Preparedness 
Program? What was the motivation to do that?
    Mr. Cragin. Initially, Mr. Chairman, the Nunn-Lugar-
Domenici legislation itself authorized the President, beginning 
on October 1, 1999, or thereafter, to designate an agency other 
than the Department of Defense as the lead agency for 
conducting the Domestic Preparedness Program. So we have the 
existence of the legislation.
    Second, we had been involved, and have been historically, 
as a supporting agency in the Federal inventory supporting FEMA 
and supporting the Department of Justice. As I mentioned in my 
opening remarks, there was a great deal of confusion, as Mrs. 
Martinez mentioned in hers, within the first responder 
community. They were coming to the Department of Defense for 
certain aspects; they were coming to the Department of Justice 
for others. We also had as part of this constellation of events 
that was occurring--in fact, just a year ago, May 22 of last 
year, President Clinton issued Presidential Directive 62, which 
really directed the Federal agencies to have a much more 
programmatic and collaborative approach to coordination of WMD 
responses. So you had all of this happening.
    Dr. Hamre looked at the mission of the Department of 
Defense as a mission to provide support, but recognized that we 
really didn't on a daily basis have direct contact with the 
first responder community, and that the Department of Justice 
did have that sort of daily contact through all of the FBI 
agents in, I think, the 56 field offices out there.
    Frankly, it was a very collaborative discussion, as I 
mentioned in my statement, between Dr. Hamre and Ms. Reno and 
Director Witt and Mr. Richard Clarke, who, as you know, is 
designated as the national Director for the critical 
infrastructure and domestic terrorism at the NSC, and Mr. 
Bryant from the FBI. A conclusion was reached following those 
discussions that it was in the best interests of America and in 
the best interests of providing the support to first responders 
that we transfer this program to the Department of Justice.
    Mr. Shays. Would anyone else like to add to that response?
    Mr. Mitchell. Mr. Chairman, I think at the time, as Charlie 
indicated, there were a number of Federal programs, DOD and the 
one in DOJ predominantly, that had similar targets, but 
different lists of groups that were eligible in different 
cities. One of the things that I think the transfer will 
accomplish is to eliminate any redundancy or confusion as to 
who is eligible for what and provide a much more comprehensive 
Federal training program to make a wider range of training and 
equipment and other assistance available in a much more 
integrated fashion. So I think that the transfer in addition to 
the legal and policy aspects of it, just organizationally, it 
seemed to make sense, and I believe that the first responder 
community has responded well to the proposal. We have not heard 
any concerns or anxieties from our end that they are concerned 
about that.
    Mr. Shays. Would anyone else want to make a comment? The 
second question is the decision that you did respond to, why 
DOJ and not FEMA? I would tell you that in some ways it seems 
that FEMA has more contact with local communities in terms of I 
would think that they would be more likely to want to be the 
one that would provide the training and the preparedness for 
the consequence management. So it was surprising to me that DOJ 
grabbed it instead of FEMA. So my question is why DOJ and not 
FEMA?
    Mr. Cragin. I think one of the reasons, Mr. Chairman, was 
because we had two programs that were going down tandem tracks. 
We had the Equipment Grant Program that was being administered 
by the Department of Justice and, in fact, has been 
significantly plussed up in the last year or so. And we had the 
Domestic Preparedness Training Program that was over at the 
Department of Defense. So there was almost----
    Mr. Shays. I know why it left DOD. I do know that, but I 
don't know why you chose to go DOJ instead.
    Mr. Cragin. Because they were doing the equipment grants. 
Say, for example, FEMA ended up doing the training. You still 
have Justice doing the equipping, so you don't have a one-stop 
shop.
    Mr. Shays. I understand.
    Why would not the equipment go to FEMA? It seems to me that 
that would have been the logical place to put it.
    Mr. Cragin. That was the wisdom of Congress, Mr. Shays, 
that the equipment grants programs were in the Department of 
Justice.
    Mr. Shays. But it is also the wisdom of Congress that the 
other part was at DOD.
    Mr. Cragin. But it was the wisdom of Congress that after 
October 1, 1999, that portion could, in fact, be transferred to 
the other agency.
    Mr. Shays. Right, but the question is why didn't we 
transfer both to FEMA? That is what I am trying to get at. It 
seems to me that DOJ is basically going to be focused on really 
the issue of crisis management to prevent a crime and then to 
punish the criminal. FEMA seems logically to me to be the one 
that works with local communities, tries to prepare them for 
the consequence management, and it would seem to me that they 
should be the ones dealing with the equipment and management 
and training, et cetera. That is what I am trying to sort out. 
There may not be a perfect answer, but I would at least like to 
know.
    Mr. Mitchell. In the instance of the agency administering 
the training and equipment and other support programs, it is 
the Office of Justice Programs which is the principal 
grantmaking agency. It is an operational agency, as the FBI 
would be, in the crisis management responsibilities. So the 
mission of OJP is solely to provide a wide variety of training 
and technical and financial support to State and local 
governments on a wide range of public safety issues. This is 
one of many public safety areas in which OJP has an aggressive 
and very comprehensive relationship with Governors, mayors, 
elected officials, public safety officials throughout the 
United States.
    Mr. Shays. Feel free to jump in.
    Mr. Tierney. Excuse us going back and forth. We have some 
of the same curiosity. Doesn't FEMA have the same kind of 
relationships? FEMA might know that.
    Mr. Shays. Ms. Light, if you would move the microphone down 
a little lower.
    Ms. Light. Is that better?
    Yes, FEMA is responsible for consequence management, and 
FEMA does have an excellent relationship with the emergency 
management and the fire community because we deal with them 
very regularly. Just as we deal with those communities, 
however, the Department of Justice deals very regularly with 
the law enforcement community, which is also a very essential 
component, as does the Department of Health and Human Services 
deal with the health officials that are part of the response 
also.
    Regardless of the department or agency who has lead 
responsibility, the program is one in which all of the 
departments and agencies need to continue to work very closely 
together to make sure that we are meeting the needs of the 
first responders across the spectrum; emergency management, 
fire, law enforcement, health and medical personnel. We have 
been very much a part of that program both at the national 
level and in delivering it out in the communities, and we will 
continue to be very much a part of that program as the program 
is transferred to the Department of Justice. It will do nothing 
really to diminish our role with respect to consequence 
management in the aftermath of a disaster. We will still have 
that lead responsibility, and we will still utilize the Federal 
response framework for responding to disasters.
    Mr. Shays. But what makes the question for me, though, is 
the contact you would have by the equipment and the training is 
now going to be handled by someone else. You won't have that 
kind of contact. It seems to me that it would have been logical 
to develop that relationship because the training for the 
consequence management is going to be done by someone else, but 
you are the one that is ultimately going to have to deal with 
the consequences.
    Ms. Light. We will deal with the consequences, but we are 
very much involved in the delivery of that training. We 
assisted in the development of that training. In fact, we 
developed a particular course that met the needs of the local 
responders, and we will continue to be a part of the delivery 
of that training even as the program is transferred to the 
Department of Justice. Every city visit, every training 
program, every exercise that is associated with that we are a 
part of and will continue to be a part of.
    Mr. Shays. That is helpful.
    Mr. Tierney. What is DOJ going to do?
    Ms. Light. Pardon me?
    Mr. Tierney. What is the Department of Justice going to do 
with respect to training?
    Ms. Light. The training program, Department of Justice, 
Department of Defense, the Federal Emergency Management Agency, 
EPA, HHS, and Department of Energy are all integral parts of 
that training program. When we go out to the cities and deliver 
that program, all of us are there as a united entity.
    Mr. Tierney. Under the direction of DOJ?
    Ms. Light. Yes, that would be the case. Now, under the 
direction of DOD, but then under the direction of DOD, yes.
    Mr. Shays. If the transfer is going to move to DOJ, which 
it is, why not place everything in the Office of Justice 
Programs, which already has established State and local 
relations for administering law enforcement grants and 
programs?
    Mr. Mitchell. Mr. Chairman, the vast majority, the 
assistance-related programs of the Domestic Preparedness 
Program, the city visit training, the equipment component, 
training equipment component, the Improved Response Program 
that deals with enhancing the training for State and local 
first response benefits will be transferred to the Office of 
Justice Programs.
    Mr. Shays. OK. When is this transfer going to begin to take 
place, and when will it be completed?
    Mr. Mitchell. The initial transition planning and 
integration will begin this summer as we go out, our staff, the 
companies, the DOD program personnel, to the initial regional 
kickoffs for the jurisdictions that will begin the training 
process, the 20 cities that will begin the process in fiscal 
year 2000, and then we will increasingly participate. The 
program is complex, and there is a fairly long time line 
associated from the first initial contact with the city through 
the completion of the field exercise and the bio tabletop at 
the end of this process. So our MOU is quite specific as to the 
DOJ-DOD coordination on those jurisdictions where there will be 
a residual activity remaining after the transfer occurs on 
October 1, 2000.
    Mr. Shays. What will happen to the existing DOD contracts?
    Mr. Cragin. The existing DOD contracts will either reach 
their conclusion as far as the fiscal year applicability is 
concerned, or they will be transferred to the Department of 
Justice. That is an issue that we look at on a regular basis 
because of the fiscal year program. We are going to be 
budgeting some last-quarter dollars in the preceding fiscal 
year to get over to the first quarter of the transition year so 
that there is absolutely no hiatus in the program evolution. 
From the city's perspective, Mr. Chairman, this will be 
completely transparent to them.
    Mr. Shays. OK. Thank you.
    Mr. Cragin, I think this is also from your statement. You 
said the Domestic Preparedness Program currently consists of 
five program elements: One, the city, training the trainer 
programs. The second one was the annual Federal, State and 
local--FSL--exercise. I think the third one is the Improved 
Response Program [IRP]; four, expert assistance; and five, 
chemical and biological response. What parts of the program 
will DOD retain, and what parts of the program will DOJ receive 
of these?
    Mr. Cragin. As I indicated in my opening statement, we are 
essentially going to retain the chemical and biological rapid 
response team. As you know, the legislation required that the 
Department of Defense establish at least one of those teams. We 
have established that in fiscal year 1999.
    Mr. Shays. That is within the marine----
    Mr. Cragin. That is an amalgam of expertise within the 
Department of Defense. That includes and can utilize, for 
example, the tech escort units, Chemical and Biological 
Incident Response Task Force from the Marine Corps. But we have 
also established, and not up and running yet, and I believe 
this committee is going to have a hearing to discuss the topic 
on June 23, what we call rapid assessment and initial detection 
teams, which will be fielded through the United States to 
assist State and local authorities in assessing an event in 
determining exactly what they are dealing with and providing 
support. So we are going to retain those things. We are also 
going to retain part of the expert assistance aspects because 
we have mission requirements for those activities within the 
Department of Defense.
    Mr. Shays. As it relates to the trainer program, what part 
will DOJ assume, and what part will DOD continue?
    Mr. Cragin. DOJ will assume the entire aspect of that 
program. That is essentially the guts, so to speak, of the 
Domestic Preparedness Program where they go out, as we have to 
date, with 58 cities and about 15,700 first responders, and we 
train them as trainers so that you get the leveraged capacity 
of them going forward to train additional personnel.
    Mr. Shays. When will the FSL Exercise Improvement Response 
Program be transferred to Justice?
    Mr. Cragin. That will not be transferred, Mr. Chairman, 
because by the law the Department of Defense is only required 
to conduct that for a 5-year period. So 2001 will be the last 
year of that program, and we have agreed to maintain that as a 
Department of Defense-led activity. But I echo Ms. Light's 
comments to you. This is an interagency process. Everybody is 
collaborative in working this process, and they all participate 
in the exercise planning as well.
    Mr. Shays. I think that is clear. I think it is important 
for us to begin to appreciate all of the parts to it, which 
leads me to ask after 2001, won't the program continue? Won't 
Congress authorize it up to 2001?
    Mr. Cragin. I am going to let Mr. Mitchell respond to the 
question of the program, but I want to emphasize the Federal, 
State and local annual exercise aspect expires at the end of 5 
years. The rest of the program continues.
    Mr. Shays. Let me just say, you are going to be having an 
exercise this year in New York City?
    Mr. Cragin. Yes, sir.
    Mr. Shays. That will involve how much; over what period of 
time will that exercise take place? I am sure that you are 
planning for it now, but is that a 1-day event? Is it a 5-day 
event?
    Mr. Cragin. I am not sure about the specific days. It will 
be more than a day, I can tell you that.
    Mr. Shays. Actually, I can get into that issue later, that 
is a little off subject. I will try to make a point to be there 
if I can.
    Mr. Cragin. We would be happy to provide your staff with 
all of the necessary information.
    Mr. Shays. Thank you.
    Mr. Mitchell.
    Mr. Mitchell. Mr. Chairman, we fully intend to take the 
program as exists and through the interagency process that we 
are engaging in now to determine what would be the next phase 
of the Nunn-Lugar-Domenici Domestic Preparedness Training 
Program, recognizing that 120 municipalities, while a large 
part population-wise of the country, there are areas of the 
country, 12 States, where there has been no program activity at 
all.
    So we are going to look at the requirements and also look 
at some of the ways that we can improve the delivery of that, 
hopefully over the next few years, to have a more objective 
means of targeting not only the Domestic Preparedness Program 
training, but equipment and others on something other than 
population, which gets to the needs assessment and the other 
activities that are under way now, which hopefully will give us 
a broader range of criteria and something more substantive to 
base targeting of training equipment on other than population, 
certainly to address the support in those 12 States where there 
has been no Nunn-Lugar-Domenici or OJP involvement.
    Mr. Shays. When you do this training exercise, you invite 
community leaders from other areas to witness and participate? 
There has got to be an answer yes, because I see a nodding of 
the head in the audience.
    Mr. Cragin. I don't want to say that I anticipated the 
question, but I happen to be reading an after-action report on 
a domestic preparedness training session that was done out in 
Oakland, CA. It was 1 of the 120 cities. This is the student 
demographics that they report. Students were selected by the 
local jurisdiction and represented several key responder 
disciplines, major disciplines, firefighters, law enforcement, 
emergency medical service and hospital care providers. Other 
students included representatives from the Federal Aviation 
Agency; Federal Bureau of Investigation; U.S. Air Force; U.S. 
Army Reserve; and the U.S. Department of Energy; California 
Army National Guard; California Office of Emergency Services 
and the California EMS Authority; Alameda County Fire; Contra 
Costa County Health; OES and sheriff, cities of Alameda, 
Berkeley, Hayward, Livermore, Pleasanton, Newark, Presidio of 
Monterrey, Richmond, Salinas, San Francisco, San Leandro, San 
Rafael and Emeryville; city of Oakland Public Works and Office 
of Emergency Services; American Medical Response; Bay Area 
Rapid Transit; Lawrence Livermore National Lab; Oakland 
Coliseum; Port of Oakland; and Stanford University.
    Mr. Shays. So the answer is yes?
    Mr. Cragin. The answer is yes.
    Mr. Shays. DOD has said, Mr. Cragin, that it will retain 
control of the chemical-biological rapid response team. But my 
question is to Mrs. Martinez. Does FBI have or plan to have any 
WMD rapid response teams of its own?
    Mrs. Martinez. In the way of rapid response teams, I would 
say we are offering training to the technician level HAZMAT in 
each of our offices--excuse me, in 10 of our offices. 
Operations level has been met in the remaining 41. I would 
offer that this largely has to do with the event of collecting 
evidence in a contaminated crime scene as opposed to moving in 
to do that job that would otherwise be done by State and local 
HAZMAT professionals. We feel there will be a teaming and 
concerted training effort for sustainment of certification 
between the local offices and the local fire and HAZMAT teams, 
not to replace, though, the other teams.
    Mr. Shays. Thank you very much.
    Let me just ask a question here of counsel.
    Thank you.
    Mr. Tierney.
    Mr. Tierney. Thank you.
    Mr. Mitchell, the testimony indicated that under the 
current program there are 120 cities designated to receive 
training and equipment loans. Prior to the announcement of the 
proposed transfer, GAO criticized the Department of Defense for 
delivering the Domestic Preparedness Program to cities rather 
than larger metropolitan areas that GAO said would have greatly 
increased the coverage. Does the DOJ plan to change that 
geographic methodology for determining which places receive 
training and equipment?
    Mr. Mitchell. Congressman, we certainly concur that there 
is limited utility in focusing on a single hub city where under 
existing mutual aid agreements and other protocols there is 
going to be a joint response. I will--in DOD's defense, they 
have, as based on Mr. Cragin's reason--they have made 
incremental changes over time as required by law to broaden 
that net. We certainly intend to maintain that broad base so 
that--working with the local jurisdiction to identify and 
involve in training all relevant first response units within 
the surrounding jurisdictions.
    Mr. Tierney. Yes?
    Mr. Mitchell. Yes.
    Mr. Tierney. Thank you.
    How many of the original 120 cities under the Domestic 
Preparedness Program will not be trained prior to the date of 
transfer?
    Mr. Cragin. Well, we have done 58. I think that we are 
looking at 69 that will be fairly well along in the transfer. 
As Mr. Mitchell said, Congressman Tierney, this is a lengthy 
process that goes on over a year by the time you get to the 
local exercise aspects of it. We have a very precise transition 
plan with three stages that is articulated in our Memorandum of 
Understanding, which, as we indicated, we expect will be 
finalized in summer.
    Mr. Tierney. You anticipate that all of those that aren't, 
at the time of transfer it can be guaranteed that they 
eventually will be trained?
    Mr. Cragin. That is correct.
    Mr. Mitchell. Under the current MOU, there are really two 
phases. Phase one is all of the preliminary meetings up through 
and including the delivery of the training and the fielding of 
the chemical tabletop. And then there is a subsequent period of 
time where they conduct their training and the other exercise 
is planned, which is phase two. Under the current agreement, 
DOD by the end of fiscal year 2000 would have provided complete 
training, complete phase one and phase two to 68 jurisdictions, 
and they will have completed a phase one training to an 
additional 37, which will bring a total of 105 jurisdictions 
that have actually received the training. The remaining 37 will 
be exercised--the phase two exercise will be part of the 
transition for responsibilities to OJP. But there will only be 
15 of 120 cities as of the date of the transfer that have not 
begun the process.
    Mr. Tierney. They will still get it?
    Mr. Mitchell. That is true. They will be the first group of 
cities that will be targeted to receive the program in fiscal 
year 2001.
    Mr. Tierney. One significant change of the program appears 
to be that the Department of Justice will offer equipment 
grants to cities that it trains after the transfer; is that 
right?
    Mr. Mitchell. That is right.
    Mr. Tierney. What about those cities that got loans prior 
to the transfer? Are they going to do anything with that, 
change the nature of that relationship?
    Mr. Cragin. I think this is another perfect example of why 
we needed this all in one shop, Congressman Tierney. Under the 
legislation that we were administering at the Department of 
Defense, there really was no equipment grant program 
authorized. So essentially what the Department did is it 
provided a modest amount of equipment that could be utilized 
for training purposes, and it was, to use the term of art, on 
loan. I would suggest it was on loan in perpetuity, and I think 
that the GAO made some comment about that in their evaluation.
    But we are talking about equipment grants for an inventory 
of equipment that the first responders can utilize 
operationally rather than just having a training set. I think 
the Department of Justice moved forward with this. They are 
going to be looking at each of these entities having the 
ability to compete and submit requests for equipment grants 
regardless of whether they receive the equipment loan for 
training purposes from the Department of Defense.
    Mr. Tierney. So the loans really were just a startup kit, 
so to speak.
    Mr. Cragin. Yes, sir.
    Mr. Tierney. Nobody is going to call that note? Nobody is 
anticipating calling it, but if they then think they have to 
upgrade, they can apply for grants along with everybody else. 
Is there any pecking order as to who is going to be--liable to 
be first in line for those new grants?
    Mr. Cragin. Let me just say that I don't anticipate that 
anybody is going to call the note. I expect that this equipment 
will over the passage of time be degraded, and they will be 
looking for additional equipment grants from my colleague Mr. 
Mitchell.
    Mr. Tierney. But there is no priority list?
    Mr. Mitchell. For fiscal year 1999 that we just recently 
completed this agreement, there will be grants made to the 157 
this year, fiscal year 1999, to the 157 largest cities and 
counties. That is consistent with the language in the 
conference report that accompanied our fiscal year 1999 
appropriations bill. Plus we will make additional grants to the 
balance of the Nunn-Lugar cities, which, if my memory serves, 
is 55 cities in addition this year, total of 212. So they will 
all receive operational equipment grants this year.
    The training equipment--really if they are doing training, 
the training is ripped. It gets used. It is OK to train in a 
level A suit that is ripped if it is for training. It is not OK 
to use operational equipment to train, because if you take it 
off the HAZMAT truck, or you remove it from service to train 
in, then when that response unit is called, their equipment is 
not going to be there, nor can they use equipment that has been 
damaged through training.
    There are two distinct purposes for the equipment that we 
will be providing them currently. DOD's equipment is for 
training support. We think that is appropriate. Additionally 
there will be operational equipment grants also to build both 
their training capabilities and their operational response 
capabilities.
    Mr. Tierney. Thank you.
    I think that you have already indicated this, but let me 
put it in the record anyway. How will the implementation of the 
five elements of the Domestic Preparedness Program that Mr. 
Cragin discussed be divided between OJP and NDPO exactly?
    Mr. Mitchell. I will start with what we are doing in OJP. 
OJP will be responsible for all the facets of the city visit 
program, the training program, which is the city training 
itself, the development and conduct of the exercises that 
support that, and all of the contractual activities and support 
that allow us to provide that training.
    The Improved Response Program, which is the testing and the 
validation of programs and activities and equipment that allows 
us to upgrade the training and inform the first responder 
community of information that we glean from this to help them 
be better prepared, we will--OJP and DOD--will jointly support 
that because they have their own requirements that they need to 
do that. We will augment and participate in that for the 
benefit of State and local first responders. The Expert 
Assistance Program, the technicians, the people that will 
answer the phone, under the current process that will be a 
responsibility that will be transferred to the NDPO.
    Mrs. Martinez. Technically that will be the helpline, a 
hotline, and a Web site. As we are the information 
clearinghouse, if you will, they will take on the execution of 
the city visit and training program along with the equipment 
aspects, and we will maintain the helpline, hotline and 
Internet Web site.
    Mr. Tierney. Helpline, hotline, Internet site. They are all 
basically the same, three different ways to contact?
    Mrs. Martinez. No, sir. The helpline is basically manned 9 
a.m. to 6 p.m. Eastern Standard Time with voice mail after that 
and on weekends and holidays. It is intended for nonemergency 
calls, general calls about preparedness and help. The hotline 
is an emergency call line. That is staffed 24 by 7 by the 
national response----
    Mr. Tierney. And the Web site is informational bells and 
whistles?
    Mrs. Martinez. Yes, sir.
    Mr. Tierney. If I am a local fire department and I want to 
call for any of these, is there one number that I call, or do I 
have to call individually down the line to the appropriate 
aspect here in order to get my questions answered?
    Mrs. Martinez. Well, the vision here is that you will have 
one telephone number for nonemergency activities.
    Mr. Tierney. That is somewhere down the line?
    Mrs. Martinez. We hope soon, yes. As the NDPO would be 
approved, we think that would be the very first step.
    Mr. Tierney. And in emergency situations?
    Mrs. Martinez. They would use existing protocols as well as 
the hotline, which is the National Response Center that most of 
them already use in addition to 911.
    Mr. Shays. Thank you.
    Also, to set the record straight, this is really the first 
hearing. We had Mr. Clarke in earlier and with respect to this 
committee before I chaired it, it had a number of hearings 
before.
    Mr. Cragin. I was here.
    Mr. Shays. Mr. Cragin, exactly. I need to make sure that 
the record reflected that you were here when Speaker Hastert 
who was not then the Speaker, chaired this committee.
    I would like to now ask Ms. Light as well as Mr. Baughman, 
if I could, to respond to this question. Would you describe the 
types of relationships that FEMA has established with State and 
local officials and the structure from which you carry out 
these relationships? I am trying to think of the operational 
process that takes place. So I want to know the relations that 
FEMA has established with State and local officials and the 
structure from which you carry out these relationships.
    Ms. Light. FEMA on a regular basis has a relationship with 
the State emergency management basically through the State 
directors. We deal with them on a very regular basis for 
preparedness types of initiatives. In a natural disaster 
situation, just as there is a Federal coordinating officer that 
would be designated for a Federal disaster declaration or 
emergency, there is a State coordinating officer, and our 
relationship through the State would be the Federal 
coordinating officer with the State coordinating officer to 
make sure that the requirements by the State are, in fact, 
coordinated and responded to at the Federal level.
    Mr. Shays. Could I have a little more detail? In other 
words, you also work directly with the local governments as 
well, don't you? You have the fire chiefs, you have the 
Governor's office. I would like a little more detail to this 
answer.
    Ms. Light. We do work with those, but we work principally 
through the States. In fact, we have 10 regional offices, as 
you probably know, and we have regional representatives who are 
specifically designated to work with State directors in each of 
the States to ensure State coverage. They work directly through 
the States with the locals. So the States work more directly 
with the local personnel than we do. And in a disaster, in a 
response kind of situation where there is actually a disaster, 
the requirements for the locality come up through the State, 
and then they are coordinated at the Federal level.
    Mr. Shays. Mr. Baughman, I would really like your 
contribution. Why don't we get another chair up there, I am 
sorry.
    Mr. Baughman. When local fire departments respond, they set 
up an incident command post. If, in fact, they need additional 
resources, the request goes to the local emergency operations 
center. If they need outside resources, they either go through 
mutual aid or back up to the State emergency operations center. 
In such States as California, they have a statewide mutual aid 
agreement, and they can bring in resources throughout the 
State. If, in fact, Federal resources are needed, we plug in 
with the State emergency operations center. By that time they 
have already identified what kinds of resources are needed down 
at the local level, such as in Oklahoma City. When we send a 
team down, we plug in with the local incident commander down at 
the incident scene, and we use our resources just like other 
mutual aid assess on the scene.
    Mr. Shays. Wouldn't it be wise to develop relationships now 
with some of our local governments and county governments?
    Mr. Baughman. Actually we do this. We have two 
organizations that we deal with, primarily the National 
Emergency Management Association, which is State level, and at 
the local level it is now the International Emergency 
Management Association, and we deal with county and local 
officials in addition to dealing with NACO and all of the other 
traditional organizations at IAFC and IAFF.
    Mr. Shays. I have three more questions that I would like to 
focus in on, and then basically I will just ask you all, if Mr. 
Tierney has some more, to just make any last comment that you 
want to make.
    I would like to know what authority will the National 
Domestic Preparedness Office have to restrict other agencies 
from initiating and implementing their own training and 
equipment program?
    Mrs. Martinez. That is certainly not the intent, nor would 
it satisfy us in any way. There will be no authority, nor will 
we seek such authority as to limit other agencies from 
developing programs. Our interests, rather, would be that those 
programs would be developed in association or accordance--
compliance with, if you will--minimum standards that we would 
all agree to ahead of time.
    Mr. Shays. My question was not advocating that you have 
that authority, but it was to get that response. Thank you.
    I would also like to ask the Department of Justice how they 
are going to reconcile, which I alluded to in my statement, the 
obvious conflicts with crisis management including the followup 
on criminal investigations and consequence management. I really 
think of the DOJ as being the organization that prevents crimes 
and then wants to establish who committed them, but I think of 
FEMA as just coming right in there, and we have people who need 
help, and we are going to help them right now and the 
investigation be damned kind of thing. How do you reconcile 
since you all now will be making that decision?
    Mrs. Martinez. Largely this is a partnership. As a few of 
us at the table did respond to Oklahoma City, we recognize 
right away the priority of saving lives. Consequence management 
sometimes does require a front seat to what later may put 
someone in jail, which is our collective ultimate 
responsibility at Justice. We are working very closely with 
FEMA, and you will see the interagency plans that we have put 
together, the Concept of Operations Plan and the Federal 
Response Terrorism Incident Annex--will show that there has 
been a collaboration of partnership in recognition of the need 
to simultaneously address crisis and consequence management, in 
many cases consequence management comes first.
    Mr. Shays. Thank you.
    My last question. Give me the mechanism that is going to be 
established between the NDPO and OJP and other agencies. What 
kind of mechanism are you actually establishing, a formal 
mechanism? In other words, I know that you want to agree with 
each other, and you are going to cooperate. I don't mean that 
facetiously, that is fairly clear. It is essential to have that 
happen. But is there any formal mechanism that will facilitate 
that?
    Mrs. Martinez. At the present time we have a detailee from 
the Office of Justice Programs, Office for State and Local 
Domestic Preparedness Support that is co-located at the NDPO 
and would have access to all of the programs and issues that 
they would be interested in weighing in on. In addition to 
that, we have individual program area meetings. For instance, 
there are committees formed on the interagency on the issue of, 
for instance, the development of a national strategy for 
training, the development of national standards for training, 
the issue of equipment, R&D and so forth, as I mentioned 
earlier in my statement.
    Mr. Shays. I actually thought of one question that I did 
want to ask.
    Did you want to respond, Mr. Mitchell?
    Mr. Mitchell. Just to followup on Barbara's. We do have 
staff actually physically located in NDPO, but we also have 
other program staff that are a program specific to participate 
in the actual working groups on training and exercises and 
equipment. Plus I personally sit and represent our office on 
the Federal Leadership Advisory Group, which is kind of the 
umbrella Federal agency group. So we have multiple 
opportunities and multiple avenues where our programs can be 
integrated and reviewed. Everyone has a better perspective 
across the Federal agency of just what everybody is doing so 
that we can maximize the effect at the local level with the 
limited resources that we do have.
    Mr. Shays. Thank you, Mr. Mitchell, for responding to that. 
The last question I wanted to ask is what is the involvement 
that you all have with the national coordinator for terrorism 
and infrastructure security? Mr. Clarke in the White House, how 
does he interface with all of this?
    Mr. Cragin. I think that we all have quite a bit of 
involvement with the National Security Council Director, Mr. 
Chairman, in that under the PDD-62 directive, a management 
structure within the interagency was formed which is chaired by 
Mr. Clarke. And then there are subgroups dealing, for example, 
with assistance to State and local authorities. I happen to 
represent the Department of Defense at the NSC subgroup on 
assistance to State and local authorities. Many of my 
colleagues at the table are there at those meetings as well.
    In response, as an adjunct to one of your earlier 
questions, it is that group of interagency officials that work 
the issues of duplication and coordination of programs rather 
than the NDPO. The NDPO is really the conduit between the 
Federal Government and all of the programs that it brings to 
bear in this arena and the local and State officials.
    Mr. Shays. Thank you all very much. I would make a request 
that you consider allowing our staff periodically to just 
observe some of these meetings. I would also like to attend a 
few as an observer, not as a participant.
    I don't know, Mr. Tierney, if you have anything you want to 
say?
    Mr. Tierney. I just want to thank the witnesses for 
testifying.
    Finally, I want to thank you, Mr. Chairman, for putting 
this together and your staff for doing an excellent job.
    Mr. Shays. Thank you very much. There may have been a 
question that we should have asked. I am happy to have you ask 
that question and answer it for yourself if you would like to. 
Is there any comment that any of you would like to make?
    Mr. Baughman, I always have the sense that the person who 
listens the most has the best contribution. Do you have any 
closing comment that you would like to make?
    Mr. Baughman. No, I don't.
    Mr. Shays. Will you tell me later?
    Mr. Cragin, any other comment?
    Mr. Cragin. Mr. Chairman, I was a trial lawyer for 20 
years. I always tried that gambit, is there any other question 
that I should have asked you that I have not? I was never able 
to win that one.
    Mr. Shays. Actually, it was a friendly question though.
    Mr. Mitchell.
    Mr. Mitchell. No, Mr. Chairman. We do thank you for the 
opportunity to present to you what we think is the beginning 
steps, and I think this is really the beginning steps, in what 
is hopefully going to be a coordinated Federal effort that 
focuses principally and foremost on meeting the needs of State 
and local first responders. Thank you very much for the 
opportunity to be here.
    Mr. Shays. Thank you.
    Mrs. Martinez.
    Mrs. Martinez. I would just like to thank you and welcome 
the interface of your staff with NDPO, in the future.
    Mr. Shays. Thank you. We would like that very much.
    Mr. Baughman.
    Mr. Baughman. I don't have anything.
    Ms. Light. No questions. Thank you.
    Mr. Shays. Thank you very much. I appreciate you being 
here, and I appreciate your patience.
    [Whereupon, at 11:29 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED]59450.037

[GRAPHIC] [TIFF OMITTED]59450.038


</pre></body></html>
